Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141

81192
STATE OF NEW YORK,

AFFIDAVIT OF SERVICE

SS:
COUNTY OF NEW YORK

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 6th day of December 2019 deponent served 3 copies of the within

BRIEF IN OPPOSITION FOR RESPONDENTS ROBERT INGERSOLL AND CURT FREED
upon the attorneys at the addresses below, and by the following method:

BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
Kristen Kellie Waggoner
Alliance Defending Freedom
151 DD N. 90th St.
Scottsdale, AZ 85260
kwaggoner@adflegal.org
480-444-0020
Noah Guzzo Purcell
Office of the Attorney General
1125 Washington Street, SE
Olympia, WA 98504-0100
noahp@atg.wa.gov
360-753-2536

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on December 6, 2019, pursuant to Supreme
Court Rule 29.5(c]. All parties required to be , ~ v ~ se7J;J. ~
Howard Daniels

Sworn to me this

December 6, 2019
Jasmine Williams
Notary Public, State of New York
No. 01 Wl6397949
Qualified in Queens County
ission Expires September 1 6, 2023

Case Name: Arlene's Flowers v. Washington
Docket/Case No. 19-333

